E-Mail Address: 775 H Street, N.E.

Est Jodl briefs@wilsonepes.com Washington, D.C. 20002
WSO PNG Web Site: Tel (202) 789-0096
eace® www.wilsonepes.com Fax (202) 842-4896
No. 19-251

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
MATTHEW RODRIQUEZ, IN HIS OFFICIAL CAPACITY AS

THE ACTING ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on April 16, 2021, three (3) copies of the REPLY BRIEF FOR
PETITIONER in the above-captioned case were served, as required by U.S. Supreme Court Rule
29.5(c), on the following:

AIMEE FEINBERG JOHN J. BURSCH

Deputy Solicitor General ALLIANCE DEFENDING FREEDOM.
STATE OF CALIFORNIA 440 First Street, NW, Suite 600
DEPARTMENT OF JUSTICE Washington, DC 20001
1300 I Street Counsel for Thomas More Law Center
Sacramento, CA 95814 Eu ETH B. PRELOGAR
Counsel for Matthew Rodriquez, in his Official ‘Acting Solicitor General

Capacity as the Acting Attorney General of

. . UNITED STATES DEPARTMENT OF JUSTICE
California

950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530

Counsel for United States
The following email addresses have also been served electronically:

Aimee.Feinberg@doj.ca.gov
jbursch@ADFlegal.org
SupremeCtBriefs@USDOJ.gov

derekshaffer@quinnemanuel.com | |

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 16th day of April 202}.

 
 
   

COLIN CASEY HOGAN
Notary PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
